No. ______
In the

Supreme Court of the United States
__________________

SHERIFF KEN MASCARA, in his Official Capacity as
Sheriff of St. Lucie County, Florida and
CHRISTOPHER NEWMAN,
Petitioners,
v.
VIOLA BRYANT, as Personal Representative of the
Estate of GREGORY VAUGHN HILL, JR.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
SUMMER M. BARRANCO
Counsel of Record
RICHARD A. GIUFFREDA
PURDY, JOLLY, GIUFFREDA,
BARRANCO & JISA, P.A.
2455 East Sunrise Boulevard
Suite 1216
Fort Lauderdale, Florida 33304
(954) 462-3200
summer@purdylaw.com
richard@purdylaw.com
Counsel for Petitioners
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
This case involves the shooting death of Gregory
Hill which occurred during a police response to a loud
music call, in St. Lucie County, Florida. An intoxicated
Hill who was on probation confronted Deputies with a
gun in his hand when he opened his garage door in
response to their knocking. Hill’s probation status did
not permit him to possess a firearm or consume alcohol.
In a pre-trial ruling, over Plaintiff’s objection, the Trial
Court, after considering Federal Rules of Evidence 401,
403 and 404(b), agreed to admit the Defendants’
evidence of Hill’s probationary status to explain his
actions in response to the Deputies, with the use of a
limiting instruction. However, during Plaintiff’s case,
Plaintiff introduced evidence that Hill was not on
probation and suggested he had a right to possess a
gun, facts the Defendants were entitled to rebut.
The Eleventh Circuit panel reversed the judgment
in favor of the Defendants and remanded for a new
trial.
The questions presented are:
Whether this Court should adopt a more flexible
standard of admissibility of evidence than what is
required by Huddleston v. U.S., 485 U.S. 681 (1988)
under Rules 403 and 404(b), regarding the
determination of prejudice in civil police liability cases,
which often involve Plaintiffs who are on probation,
have criminal histories, warrants, or possess evidence
of a crime that is unknown to the officer but helps
explain their response to law enforcement officers
performing their duties?

ii
Did the Eleventh Circuit panel disregard the
appropriate standards of review and the appropriate
application of the harmless error rule, making
themselves impregnable citadels of technicality in this
case, resulting in a departure from the accepted and
usual course of judicial proceedings as to call for an
exercise of this Court’s supervisory power?

iii
RELATED PROCEEDINGS
Bryant v. Sheriff and Newman, 562016CA000029
(OC)(Circuit Court, 19th Judicial Circuit, in and for St.
Lucie County, Florida–case prior to removal);
Bryant v. Sheriff and Newman, 2:16cv14072 (S.D.
Fla. May 31, 2018);
Newman v. Bryant, 17-12547-A (11th Cir. January
24, 2018)(qualified immunity appeal);
Bryant v. Sheriff and Newman, 18-13902-E (11th
Cir. March 17, 2020)(reversal and remand for new
trial).

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . iii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vii
OPINIONS AND ORDERS BELOW . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
A. Basis for Federal Jurisdiction in the Court of
First Instance . . . . . . . . . . . . . . . . . . . . . . . . . 3
B. The Underlying Events . . . . . . . . . . . . . . . . . . 3
C. The Civil Trial . . . . . . . . . . . . . . . . . . . . . . . . . 4
D. The Appeal and the Eleventh Circuit Panel’s
Opinion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
REASONS FOR GRANTING THE WRIT. . . . . . . . . 9
I. THIS COURT SHOULD ADOPT A MORE
FLEXIBLE STANDARD OF ADMISSIBILITY
OF EVIDENCE THAN WHAT IS REQUIRED
BY HUDDLESTON V. U.S. UNDER RULES 403
AND 404(B), REGARDING THE
DETERMINATION OF PREJUDICE IN CIVIL
POLICE LIABILITY CASES, WHICH OFTEN
INVOLVE PLAINTIFFS WHO ARE ON
PROBATION, HAVE CRIMINAL HISTORIES,
WARRANTS, OR POSSESS EVIDENCE OF A

v
CRIME THAT IS UNKNOWN TO THE
OFFICER BUT HELPS EXPLAIN THEIR
RESPONSE TO LAW ENFORCEMENT,
AND WHERE LOSS OF LIBERTY IS NOT AT
ISSUE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
II. THE ELEVENTH CIRCUIT PANEL’S
DECISION IS WRONG . . . . . . . . . . . . . . . . . . . 16
A. The Eleventh Circuit panel failed to give due
deference to the trial court’s findings in
regard to the admissibility of Hill’s
probationary status and failed to view the
evidence in the light most favorable to the
Defendants as the prevailing parties . . . . . . 16
B. The Eleventh Circuit panel disregarded the
appropriate application of the Rules of
Evidence in its determination that the trial
court erred in admitting Hill’s probationary
status . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
C. The Eleventh Circuit panel disregarded the
appropriate application of the harmless
error standard by improperly presuming
that admission of Hill’s probationary
status resulted in substantial prejudice to
Plaintiff . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

vi
APPENDIX
Appendix A Opinion and Judgment in the United
States Court of Appeals for the
Eleventh Circuit
(March 17,2020) . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Plaintiff’s Motion for
New Trial in the United States
District Court Southern District of
Florida
(August 14, 2018) . . . . . . . . . . . . App. 17
Appendix C Final Judgment in the United States
District Court Southern District of
Florida
(May 31, 2018). . . . . . . . . . . . . . . App. 48
Appendix D Order Denying Petition for Rehearing
and Rehearing en banc
(May 12, 2020). . . . . . . . . . . . . . . App. 50
Appendix E Transcript Excerpts in the United
States District Court Southern
District of Florida Fort Pierce Division
(June 28, 2018) . . . . . . . . . . . . . . App. 52

vii
TABLE OF AUTHORITIES
CASES
Boyd v. City and Cnty. of San Francisco,
576 F.3d 938 (9th Cir. 2009). . . . . . . . . . . . . 13, 14
Est. of Escobedo v. Martin,
702 F.3d 388 (7th Cir. 2012). . . . . . . . . . . . . . . . 13
Garczynski v. Bradshaw,
573 F.3d 1158 (11th Cir. 2009). . . . . . . . . . . . . . 22
General Electric Co. v. Joiner,
522 U.S. 136, 118 S. Ct. 512,
139 L.Ed.2d 508 (1997) . . . . . . . . . . . . . . . . . 16, 17
Gill as Next Friend of K.C.R. v. Judd,
941 F.3d 504 (11th Cir. 2019). . . . . . . . . . 3, 17, 18
Graham v. Connor,
490 U.S. 386 (1989). . . . . . . . . . . . . . . . . . . . 12, 22
Green v. Bock Laundry,
490 U.S. 504 (1989). . . . . . . . . . . . . . . . . . . . . . . . 9
Greene v. Distelhorst,
116 F.3d 1480 (6th Cir. 1997). . . . . . . . . . . . 12, 13
Huddleston v. U.S.,
485 U.S. 681 (1988). . . . . . . . . . . . . . . . . . . passim
Illinois v. Wardlow,
528 U.S. 119 (2000). . . . . . . . . . . . . . . . . . . . . . . 25
Knight through Kerr v. Miami-Dade County,
856 F.3d 795 (11th Cir. 2017). . . 14, 15, 17, 20, 22

viii
Koon v. United States,
518 U.S. 81, 116 S. Ct. 2035,
135 L.Ed.2d 392 (1996) . . . . . . . . . . . . . . . . . . . . 17
McDonough v. Power Equipment, Inc. v.
Greenwood, 464 U.S. 548, 104 S. Ct. 845,
78 L.Ed.2d 663 (1984) . . . . . . . . . . . . . . . . . . 15, 26
Mendoza v. Gates,
19 Fed. Appx. 514 (9th Cir. 2001) . . . . . . . . . . . 14
Old Chief v. United States,
519 U.S. 172 (1997). . . . . . . . . . . . . . . . . . . . 20, 21
Shinseki v. Sanders,
556 U.S. 396, 129 S. Ct. 1696,
173 L.Ed.2d 532 (2009) . . . . . . . . . . . . . . . . . 15, 26
Smith v. Baltimore Police Department,
840 F.3d 193 (4th Cir. 2016). . . . . . . . . . . . . . . . 16
Sprint/United Mgmt. Co. v. Mendelsohn,
552 U.S. 379, 128 S. Ct. 1140,
170 L.Ed.2d 1 (2008) . . . . . . . . . . . . . . . . . . . 16, 29
Stepanovich v. City of Naples,
728 Fed. App’x 891 (11th Cir. 2018). . . . . . . . . . 21
Turner v. White,
980 F.2d 1180 (8th Cir. 1992). . . . . . . . . . . . . . . 13
Udemba v. Nicoli,
237 F.3d 8 (1st Cir. 2001) . . . . . . . . . . . . . . . 15, 16
United States v. Beck,
625 F.3d 410 (7th Cir. 2010). . . . . . . . . . . . . . . . 28

ix
United States v. Brown,
441 F.3d 1330 (11th Cir.2006) . . . . . . . . . . . . . . 21
United States v. Cohen,
888 F.3d 770 (11th Cir. 1989). . . . . . . . . . . . 11, 16
United States v. Finestone,
816 F.2d 583 (11th. Cir. 1987) . . . . . . . . . . . . . . 21
United States v. Green,
873 F.3d 846 (11th Cir. 2017). . . . . . . . . . . . . . . 28
United States v. King,
713 F.2d 627 (11th Cir. 1983). . . . . . . . . . . . . . . 21
United States v. Knights,
534 U.S. 112, 122 S. Ct. 587,
151 L.Ed.2d 497 (2001) . . . . . . . . . . . . . . . . . . . . 25
United States v. Young,
470 U.S. 1, 105 S. Ct. 1038,
84 L.Ed.2d 1 (1985). . . . . . . . . . . . . . . . . . . . . . . 28
Walter Int’l Prods., Inc. v. Salinas,
650 F.3d 1402 (11th Cir. 2011). . . . . . . . . . . . . . 17
Young v. Ill. Cent. Gulf R.R. Co.,
618 F.2d 332 (5th Cir. 1980). . . . . . . . . . . . . . . . 21
CONSTITUTION AND STATUTES
U.S. Const. amend. IV . . . . . . . . . . . . . . . . . . 2, 12, 25
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

x
28 U.S.C. § 1343 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1367 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 2111 . . . . . . . . . . . . . . . . . . . . . 2, 3, 25, 26
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . passim
RULES
Fed. R. Civ. P. 61 . . . . . . . . . . . . . . . . . . . . . . . . 25, 26
Fed. R. Evid. 103(a) . . . . . . . . . . . . . . . . . . . . . . . . . 26
Fed. R. Evid. 401 . . . . . . . . . . . . . . . . . . . . . . 9, 19, 20
Fed. R. Evid. 403 . . . . . . . . . . . . . . . . . . . 9, 18, 19, 20
Fed. R. Evid. 404 . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Fed. R. Evid. 404(b) . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Evid. 609(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . 9
OTHER AUTHORITIES
https://www.uscourts.gov/news/2014/06/09/over-t
wo-decades-civil-rights-cases-rise-27-percent . . 10

1
PETITION FOR WRIT OF CERTIORARI
Petitioners respectfully seek a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Eleventh Circuit.
OPINIONS AND ORDERS BELOW
The panel opinion below is an unpublished opinion
that can be found at 800 Fed.Appx. 881 (11th Cir.
2020). (Pet. App. 1). The per curiam denial of the
petition for rehearing and rehearing en banc is not
published. (Pet. App. 50). The trial court’s order
denying Plaintiff’s motion for new trial can be found at
2018 WL 3862650. (Pet. App. 17). The district court’s
opinion regarding Defendants’ motions for summary
judgment is unpublished but can be found at 2017 WL
2119559 (S.D. Fla. May 16, 2017). The Eleventh
Circuit’s opinion regarding Defendant Newman’s
qualified immunity appeal is unpublished but can be
found at 723 Fed.Appx. 793 (11th Cir. 2018).
JURISDICTION
The Eleventh Circuit entered judgment on March
17, 2020 (Pet. App. 16) and denied the petition for
rehearing and rehearing en banc on May 12, 2020. (Pet.
App. 50). By Order of this Court dated March 19, 2020,
due to the pandemic, this petition’s filing date is
October 9, 2020. The Court has jurisdiction under Title
28 U.S.C. § 1254(1).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This Title 42 U.S.C. § 1983 case involves the Fourth
Amendment to the United States Constitution as well
as Title 28 U.S.C. § 2111.
The Fourth Amendment to the United States
Constitution reads as follows:
The right of the people to be secure in their
persons, houses, papers and effects, against
unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
Title 42 U.S.C. § 1983 reads in pertinent part as
follows:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress. . . .

3
Title 28 U.S.C. § 2111 reads as follows:
On the hearing of any appeal or writ of certiorari
in any case, the court shall give judgment after
an examination of the record without regard to
errors or defects which do not affect the
substantial rights of the parties.
STATEMENT OF THE CASE1
A. Basis for Federal Jurisdiction in the Court
of First Instance
The District Court had jurisdiction pursuant to Title
28 U.S.C. §§ 1331, 1343 and 1367. The Circuit Court
had jurisdiction pursuant to Title 28 U.S.C. § 1291.
B. The Underlying Events
This case involves the shooting death of Gregory
Hill by Deputy Sheriff Newman, on January 14, 2014
in St. Lucie County Florida. The decedent, Gregory
Hill, suddenly and without warning confronted Deputy
Newman and Deputy Lopez with a hand gun during
their response to a loud and vulgar music call at Hill’s
home which was located across the street from an
elementary school during afternoon pick up time where
children and parents were present. Hill, who was
highly intoxicated, was playing loud vulgar music in
the garage of the home. After failing to gain Hill’s

1

As the judgment below was entered in favor of the Defendants on
all claims after a jury trial, the facts are to be viewed in the light
most favorable to the Defendants as the prevailing parties. See Gill
as Next Friend of K.C.R. v. Judd, 941 F.3d 504, 518 (11th Cir.
2019).

4
attention by knocking on the front door of the home,
the fully uniformed Deputies approached the garage
door, where the music was emanating from, and
knocked on the garage door to ask the occupant to turn
the music down. Mr. Hill lifted the garage door with
one hand, while holding a hand gun in his other hand.
Disregarding orders to drop the gun, Hill suddenly
began to close the garage door, while simultaneously
raising the hand gun in the direction of Deputy Lopez
who was only a few feet away. As a result Deputy
Newman, who feared for his life, and that of his
partner, fired his weapon four times at Hill as the
garage door shut. All four rounds passed through the
garage door. The final round struck Mr. Hill in the
head killing him. Mr. Hill’s hand gun was found in the
large back pocket of his shorts after the shooting, as if
he was trying to hide it. Mr. Hill was on probation at
the time of the incident and as a result was not
permitted to have a firearm or to be intoxicated. Civil
litigation by Hill’s mother, Viola Bryant, followed.
C. The Civil Trial
Prior to trial, Plaintiff filed a bench memorandum
seeking to have the fact that Hill was on probation
excluded as evidence in the case as being irrelevant
since the deputies were unaware of it, that its
probative value was substantially outweighed by the
danger of unfair prejudice as it would mislead the jury,
that it constituted improper character evidence and
would have required an explanation to the jury as to
the differences between felonies, misdemeanors,
withholds of adjudication, and other criminal law
concepts. The Defendants countered by arguing that

5
the fact that Hill was on probation at the time of the
incident was relevant to help explain Hill’s actions at
the time of the shooting and to add credibility to the
deputies’ description of what prompted the use of
deadly force, and not to show that Hill was a bad man.
The trial court issued its preliminary ruling, pre-trial,
agreeing with the Defendants and specifically finding
that the probation evidence, to be offered by the
Defendants, was relevant and would be limited to the
fact that Hill was on probation at the time of the
incident, without reference to the nature of the
underlying crime or conviction if any, for the purposes
of providing an explanation for Hill’s physical reaction
to the presence of the Deputies responding to such a
minor call. That response included rapidly shutting the
garage door, while simultaneously raising the gun, and
then quickly hiding it in his rear pocket, while being
shot, which were seemingly impossible physical tasks
and an over reaction, to the mere sight of the Deputies,
given the nature of the call. The Trial Court also
determined that a limiting instruction in that regard
would be given to the jury.
During the trial, however, it was the Plaintiff who
took a different approach and first introduced evidence
during her case in chief regarding Hill’s probationary
status, with testimony from Plaintiff’s expert as well as
from Hill’s fiancee who falsely claimed that Hill was
not on probation at the time. (Pet. App. 53-54, 59).
Plaintiff’s attorney also suggested that Hill had a right
to possess a gun in his home. (Pet. App. 71). The Trial
Court gave a limiting instruction regarding this
evidence as follows:

6
Ladies and gentlemen, as you have heard, Mr.
Hill was on probation. This evidence is only
admissible to the extent you think it is relevant
to Mr. Hill’s actions on the date of the subject
incident. It is not to be considered for any other
purpose.
The Defendants rebutted Plaintiff’s false claims, and
offered the evidence for the original purpose of
explaining Hill’s actions, during their case in chief,
through the testimony of probation supervisor, Niles
Graben. (Pet. App. 60-66).
The evidence established at trial that Hill’s blood
alcohol level was as high as .390 and he was known to
have a gun which he kept in his garage. Plaintiff’s
expert suggested that the gun found in Hill’s back
pocket may have been planted there. Hill’s young
daughter Destiny testified that she was across the
street at her elementary school sitting in the busy
student pick up area at the time of the shooting and
could see that her father’s hands were empty. Other
witnesses closer to the scene testified that they were
unable to see Hill’s hands at all. The jury clearly
rejected Destiny’s testimony, and concluded that Hill
had a gun in his hand. Hill’s fiancee Terrica Davis
testified she had broken off their engagement on the
day of the shooting as she was frustrated about Hill’s
inability to contribute to their household and had left
him a letter ending their relationship the night before
which was found in their bedroom.
During closing arguments, Defendants’ counsel
argued to the jury that as Hill was on probation and
was prohibited from possessing a firearm or drinking

7
alcohol, he had a motive for quickly getting both
himself and his gun out of the sight of law enforcement.
This supported the Defendants’ theory as to how and
why the gun was found in Hill’s back pocket, rather
than in or near his hand, particularly to rebut
Plaintiff’s expert’s suggestion that the gun was planted
there.
The Jury determined that Deputy Newman did not
use excessive force in the shooting death of Mr. Hill,
and returned a defense verdict on the 42 U.S.C. § 1983
claim brought against Deputy Newman. The jury
returned a verdict in favor of Hill’s mother, on her
state law negligence claim against the Sheriff of St.
Lucie County, awarding $4.00 in damages, and
concluding that Mr. Hill was intoxicated and 99% at
fault for his own harm, thus resulting in no award of
damages under Florida law, pursuant to the alcohol
defense raised by the Defendants.2 As a result of this
verdict, the case received extensive media attention,
including a documentary on Amazon Prime, and
negative press that a Black man’s life does not matter
or is only worth $4.00.
Plaintiff filed a Motion for New Trial raising, among
other issues, the fact that it was an abuse of discretion
for the trial court to admit evidence that Hill was on
probation. In response, the Defendants argued that the
evidence of Hill’s probation was admissible to explain

2

The negligence claim could not have involved the intentional use
of excessive force as Florida law does not recognize a claim for the
negligent use of excessive force, which is the intentional tort of
battery.

8
Hill’s reaction to the Deputies’ presence and pointed
out that it was the Plaintiff who first broached the
topic of Hill’s probationary status on her side of the
case. The motion was denied and final judgment was
entered in favor of the Defendants on all of the
Plaintiff’s claims.
D. The Appeal and the Eleventh Circuit
Panel’s Opinion
Plaintiff’s appeal followed. After hearing oral
argument, the Eleventh Circuit panel issued an
unpublished opinion which reversed the judgment and
remanded for a new trial concluding that the evidence
that Hill was on probation was irrelevant because it did
not relate to a disputed material fact and could not
inform the jury on the reasons for Hill’s behavior. The
Eleventh Circuit panel also found that the trial court
abused its discretion in admitting the fact that Hill was
on probation, despite the limiting instruction given by
the Trial Court, and that it was not harmless error.

9
REASONS FOR GRANTING THE WRIT
I. THIS COURT SHOULD ADOPT A MORE
FLEXIBLE STANDARD OF ADMISSIBILITY
OF EVIDENCE THAN WHAT IS REQUIRED
BY HUDDLESTON V. U.S. UNDER RULES 403
AND
404(B),
REGARDING
THE
DETERMINATION OF PREJUDICE IN CIVIL
POLICE LIABILITY CASES, WHICH OFTEN
INVOLVE PLAINTIFFS WHO ARE ON
PROBATION, HAVE CRIMINAL HISTORIES,
WARRANTS, OR POSSESS EVIDENCE OF A
CRIME THAT IS UNKNOWN TO THE
OFFICER BUT HELPS EXPLAIN THEIR
RESPONSE TO LAW ENFORCEMENT, AND
WHERE LOSS OF LIBERTY IS NOT AT ISSUE
The Federal Rules of Evidence apply to both
criminal and civil cases. See Huddleston v. United
States, 485 U.S. 681, 685 (1988)(discussing Rule 404(b)
specifically). However, precedential guidance in regard
to Rule 404(b) and its interplay with Rules 401 and 403
is virtually non-existent in the civil context. This Court
has previously had to weigh in to ameliorate confusion
in regard to another Rule of Evidence. See Green v.
Bock Laundry, 490 U.S. 504 (1989) (analyzing the
application of Federal Rule of Evidence 609(a)(1) in the
context of a civil case).
Civil police liability cases often involve Plaintiffs
who are on probation, have criminal histories,
warrants, or otherwise possess evidence of a crime that
is unknown to the responding officer but which
explains the individual’s response to law enforcement
officers performing their duties. As the number of civil

10
rights cases being filed against law enforcement
officers continues to rise3, it is an appropriate time for
this Court to adopt a less restrictive standard favoring
the admissibility of this type of evidence in § 1983
police civil rights cases.
By looking at the legislative history and
Congressional Reports behind Rule 404(b) which noted
a greater emphasis on admissibility than a concern for
potential prejudice, this Court set forth four
considerations for the admissibility of Rule 404(b)
evidence in the criminal case of Huddleston v. United
States, supra at 691-92. In declining petitioner’s
invitation to require a more rigid framework for its
admissibility due to his concern about prejudice, the
Court stated:
We think, however, that the protection against
such unfair prejudice emanates not from a
requirement of a preliminary finding by the trial
court, but rather from four other sources: first,
from the requirement of Rule 404(b) that the
evidence be offered for a proper purpose; second,
from the relevancy requirement of Rule 402—as
enforced through Rule 104(b); third, from the
assessment the trial court must make under
Rule 403 to determine whether the probative
3

Civil rights-related filings in the federal courts began to climb
soon after the Civil Rights Act of 1964 was signed into law,
jumping from 709 cases in 1964 to 1,123 cases by 1965. In 2013, a
total of 35,307 civil rights cases were filed in federal court, 50
times the number of cases filed in 1964, and a 27 percent jump
over the last two decades. https://www.uscourts.gov/news/2014/06/
09/over-two-decades-civil-rights-cases-rise-27-percent.

11
value of the similar acts evidence is
substantially outweighed by its potential for
unfair prejudice, 8 see Advisory Committee’s
Notes on Fed.Rule Evid. 404(b), 28 U.S.C. App.,
p. 691; S.Rep. No. 93–1277, at 25; and fourth,
from Federal Rule of Evidence 105, which
provides that the trial court shall, upon request,
instruct the jury that the similar acts evidence
is to be considered only for the proper purpose
for which it was admitted. See United States v.
Ingraham, 832 F.2d 229, 235 (CA1 1987).
The current precedent is overwhelmingly set forth
in criminal cases, which involve the loss of liberty. This
Court should use a less restrictive approach in the
application of Rule 404(b) in the context of civil cases,
specifically regarding whether the evidence is more
prejudicial than probative in accordance with the
Huddleston case. This is particularly appropriate in
civil cases involving law enforcement officers, to
promote uniformity, avoid application of a stricter
standard more appropriately applied against the
government in a criminal prosecution where someone’s
liberty is at stake, and to honor Congressional intent of
more liberality in the admissibility of evidence. See
Huddleston, supra; United States v. Cohen, 888 F.3d
770, 776 (11th Cir. 1989)(court noted that normal risk
of prejudice is absent where criminal defendant was
offering Rule 404(b) evidence against the government’s
witness). It is also apparent that police liability cases
will, more often than not, involve interaction with
Plaintiffs who are suspected of unlawful behavior, and
who may have previously had contact with the criminal
justice system so as to impact their response to law

12
enforcement, even during relatively minor interactions.
It should be the rule that such evidence, if relevant to
explain the actions of the Plaintiff which relate to the
reasonableness of an officer’s perception or the
credibility of the officer’s testimony regarding the
event, is presumed to be admissible, and not unfairly
prejudicial and where necessary, a limiting instruction
should be given.4
A review of a few other police liability cases is
warranted. In the section 1983 excessive force case of
Greene v. Distelhorst, 116 F.3d 1480 (6th Cir. 1997),
Greene appealed to the Sixth Circuit following a trial
which resulted in a jury verdict in favor of the
defendant officers. Greene attacked the evidentiary
rulings by claiming prejudice. The Sixth Circuit found
that “evidence of Greene’s conduct leading to his
arrest...and the convictions stemming from that arrest
were admissible to provide the jury with a full account
of the events giving rise to Greene’s present claims and
4

As this Court has stated, an excessive force claim against a law
enforcement officer must be analyzed under the Fourth
Amendment and its reasonableness standard. Graham v. Connor,
490 U.S. 386, 395 (1989). The reasonableness inquiry involves a
determination of whether the officer’s actions are objectively
reasonable in light of the facts confronting the officer, regardless
of the officer’s underlying intent or motivation. Graham, 490 U.S.
at 397. Reasonableness depends on all circumstances relevant to
an officer’s decision to use force, including the severity of the crime
at issue, whether the suspect posed an immediate threat to the
safety of the officer or others, and whether the suspect actively
resisted arrest or attempted to evade arrest by flight and must
account for the fact that police officers are sometimes forced to
make split-second judgments under circumstances that are tense
and rapidly evolving. Graham, 490 U.S. at 397.

13
to demonstrate Green’s motive to run, hide and resist
arrest.” Greene, supra at *3. Additionally they held
that his “drug abuse conviction was based on the
marijuana found in Greene’s possession at the time of
the arrest and was admissible for the purpose of
demonstrating Greene’s motive to flee and resist arrest
and the officers’ motive to maintain pursuit.”
The Seventh Circuit, has likewise stated, when
dealing with a § 1983 case involving the police shooting
of a suicidal man: “evidence unknown to officers at the
time force was used is also admissible to add credibility
to an officer’s claim that a suspect acted in the manner
described by the officer.” See Est. of Escobedo v.
Martin, 702 F.3d 388, 400 (7th Cir. 2012).
The Eighth Circuit as well has opined in a § 1983
excessive force case involving a police shooting of the
driver of a vehicle involved in an investigatory traffic
stop: “it was incumbent upon the jury to consider [the
defendant officer’s] actions in relation to all the
circumstances of the situation that confronted him. We
therefore believe the evidence of alcohol consumption
[by the vehicle’s occupants] is relevant to the jury’s
assessment of that situation...” See Turner v. White,
980 F.2d 1180, 1182-1183 (8th Cir. 1992).
The Ninth Circuit has also stated: “In a case. . .
where what the officer perceived just prior to the use of
force is in dispute, evidence that may support one
version of events over another is relevant and
admissible.” Boyd v. City and Cnty. of San Francisco,
576 F.3d 938, 948-949 (9th Cir. 2009). In Boyd, the
Ninth Circuit approved a trial court’s ruling allowing
evidence that the decedent had been on drugs at the

14
time of a police shooting because the evidence “was
highly probative of the decedent’s conduct, particularly
in light of [the decedent’s] alleged erratic behavior...”
Id. at 949; see also Mendoza v. Gates, 19 Fed. Appx.
514, 518-19 (9th Cir. 2001)(district court did not abuse
its discretion under Rule 404(b) because Olsen did not
seek to admit evidence of the prior conviction “in order
to show action in conformity therewith.” Rather, Olsen
sought to admit the evidence of the prior conviction to
show that Mendoza was on probation, and, therefore
that he had some motive to run from the police, other
than, for example, the motive to run from “the gun
Olsen was pointing at Jose Mendoza,” as asserted by
the Mendozas. This use of the prior conviction is
permissible.).
Finally, even the Eleventh Circuit, notwithstanding
the panel opinion in this case, has followed suit. In
Knight through Kerr v. Miami-Dade County, 856 F.3d
795 (11th Cir. 2017), the Plaintiffs brought federal and
state claims arising out of an incident which involved
a police chase that ultimately culminated in a police
shooting. Two of the passengers of the car were killed
and the other was injured. Id. at 803-805. Prior to trial,
the Plaintiffs in Knight moved to exclude evidence of
the driver’s previous felony convictions. The trial court
permitted the driver’s most recent conviction because
the court found “it was material to the defense theory
that his earlier conviction and his probation status
caused him to initiate, and refuse to cease flight when
confronted by the officers.” Id, at 815-816. In
evaluating the propriety of the trial court’s ruling, the
Eleventh Circuit first noted Rule 404(b)’s exception
regarding evidence of a crime, wrong or other act when

15
the evidence is used to show motive, opportunity,
intent, preparation, plan, knowledge, identity, absence
of mistake, or lack of accident. Id, at 816. In ratifying
the trial court’s decision to allow evidence of the
driver’s probation status, the Eleventh Circuit
concluded that the evidence was plainly admissible
under Rule 404(b) to establish the driver’s motive in
fleeing since if he had simply pulled over, “he would
have been caught associating with other people on
probation, which might have jeopardized his
probationary status.” Id. at 816-817.
The panel opinion here cannot reasonably be
reconciled with these cases in terms of the application
of the prejudice factor announced in this Court’s
opinion in Huddleston. As a result, there is too great of
a risk that a reviewing court in the context of a civil
case like this will become an impregnable citadel of
technicality which this Court cautioned against in
McDonough and Shinseki, see infra.
In addition, opinions from other circuits, in dealing
with § 1983 excessive force cases, show both a lack of
uniformity in their application of this Court’s directives
in Huddleston and a lack of precedential guidance on
this matter in the context of civil litigation.
For example, in dealing with the admissibility of a
plaintiff’s subsequent domestic abuse arrest, and
permitting its admission in a section 1983 false arrest
and excessive force case, the First Circuit, in Udemba
v. Nicoli, 237 F.3d 8, 15 (1st Cir. 2001) ultimately
interpreted the text of Rule 404(b) as suggesting a
bifurcated two-step analysis. It found that any errors
were harmless noting the considerable discretion

16
enjoyed by the trial court in evidentiary matters. Id. at
14, 18. The Fourth Circuit, however, in a similar §1983
excessive force case, looked to a criminal case in its
circuit for guidance and utilized a four part test that
differs from Huddleston to assess admissibility of prior
act evidence. See e.g. Smith v. Baltimore Police
Department, 840 F.3d 193, 201 (4th Cir. 2016)
(bystander’s prior arrests).
In consideration of Congressional intent which
favors the admissibility of evidence, the calculus of
prejudice should be less stringent where loss of liberty
is not a factor. See U.S. v. Cohen, supra. This case
presents this Court with an opportunity to adopt such
a standard.
II. THE ELEVENTH CIRCUIT
DECISION IS WRONG

PANEL’S

A. The Eleventh Circuit panel failed to give
due deference to the trial court’s findings
in regard to the admissibility of Hill’s
probationary status and failed to view the
evidence in the light most favorable to the
Defendants as the prevailing parties
What this Court has described as a “hallmark of
abuse-of-discretion review,” with respect to evidentiary
questions in general and Rule 403 in particular, a
district court virtually always is in the better position
to assess the admissibility of the evidence in the
context of the particular case before it. Sprint/United
Mgmt. Co. v. Mendelsohn, 552 U.S. 379, 384 128 S. Ct.
1140, 1146, 170 L.Ed.2d 1 (2008); see also General
Electric Co. v. Joiner, 522 U.S. 136, 143, 118 S. Ct. 512,

17
517, 139 L.Ed.2d 508 (1997)(citing Koon v. United
States, 518 U.S. 81, 88-89, 116 S. Ct. 2035, 2046-2047,
135 L.Ed.2d 392 (1996)). “Deference is particularly
appropriate where,” as here, “a new trial is denied and
the jury’s verdict is left undisturbed.” Walter Int’l
Prods., Inc. v. Salinas, 650 F.3d 1402, 1407 (11th Cir.
2011)(quotation marks omitted). Moreover, the
appellate court in this instance should view the
evidence in a light most favorable to the prevailing
party. Gill as Next Friend of K.C.R. v. Judd, 941 F.3d
504, 518 (11th Cir. 2019).
The district court below appropriately listened to
the evidence in this case and, utilizing its considerable
discretion, permitted the Defendants to introduce
evidence of Hill’s probation status since it helped
explain Hill’s actions on the day of the subject incident
and added credibility to the deputies’ description of the
subject incident. The trial court noted in its denial of
Plaintiff’s motion for new trial: “Because of the dispute
regarding whether Mr. Hill had the gun in his hand
when he answered the door, Mr. Hill’s probationary
status was relevant in order to add credibility to
Defendant Newman’s version of the events. The Court
notes that this case is not unlike the case of Knight v.
Miami-Dade Cnty., 856 F.3d 795 (11th Cir. 2017). . . .
In Mr. Hill’s case, evidence of Mr. Hill’s probationary
status was probative of his motive to close the garage
door and put the gun in his back pocket, in order to
avoid jeopardizing his probationary status. Evidence of
Mr. Hill’s probationary status was probative of the
defense theory of the case—that Mr. Hill answered the
garage door with a gun in his hand and then placed it
in his back pocket.” (Pet. App. 33).

18
Further, in its application of Rule 403, the trial
court noted “when weighing the probative value and
the danger of unfair prejudice, the Court finds that the
probative value of Mr. Hill’s probationary status was
not substantially outweighed by a danger of unfair
prejudice” as a limiting instruction had been given to
the jury.
The Eleventh Circuit panel rejected the district
court’s reasoning that Hill’s probationary status may
have motivated him to attempt to hide his gun in his
back pocket, by stating that there was “a problem with
this reasoning. Hill’s probationary status could not
inform his motivation to conceal the weapon in the
scenario described by the officers. No reasonable person
would wish to be seen pointing a gun at police officers,
regardless of their probationary status. Thus, this
evidence made neither party’s account of the shooting
more or less probable.” (Pet. App. 10-11). However, no
one contended that Hill was ever seen “pointing” a gun
at either of the officers. Rather, it reasonably appeared
to Deputy Newman that Hill started raising the gun,
which was in Hill’s right hand, in the direction of
Deputy Lopez as he was manually lowering the garage
door with his left hand. In addition, there is no
evidence to support the conclusion that probationers
engaged in illegal activities would respond to the
presence of police officers in the same manner as a
person engaged in lawful activities inside of their
home, such as possessing a gun or consuming alcohol.
Further, the panel failed to view the evidence in the
light most favorable to the Defendants, who were the
prevailing parties. See Gill, supra. This evidence

19
included Hill’s high blood alcohol level, that he was
known to keep a gun in his garage, and that he would
have been able to put the gun into his rear pocket prior
to the last shot striking his head, as demonstrated
during trial where the gun easily fit into the large rear
pocket of Hill’s shorts. Most notably, the Eleventh
Circuit panel’s conclusion that Hill’s daughter had an
unobstructed view of her father is not supported by the
record and was clearly not viewed in a light most
favorable to the Defendants who were the prevailing
parties. Hill’s young daughter’s testimony that she
could see that her father’s hand was empty, was
rebutted by other witnesses, many of whom were
physically closer to the scene than she was as well as
evidence that school traffic would have impeded her
view, as she was sitting on a bench in the busy school
pick up area across the street from Hill’s house. The
jury heard her testimony and weighed it appropriately.
B. The Eleventh Circuit panel disregarded the
appropriate application of the Rules of
Evidence in its determination that the trial
court erred in admitting Hill’s
probationary status
The Eleventh Circuit panel concluded that Hill’s
probationary status was “prejudicial and not relevant
to any disputed fact” and that “[b]ecause Mr. Hill’s
probationary status was only relevant to prove a fact to
which both parties agreed, its probative value was
highly limited.” (Pet. App. 8, 11-12). Clearly the panel’s
opinion here ignores the interplay among Federal Rules
of Evidence 401, 403 and 404 and is not in line with the
reasoning behind Rule 401 as set forth by this Court in

20
Old Chief v. United States, 519 U.S. 172 (1997).
Moreover, the panel’s opinion was factually inaccurate
and otherwise failed to follow its own precedent as set
forth in the Knight opinion by requiring more than
motive which too narrowly applied the test of relevancy
by holding that the probation evidence had to be
relevant to a disputed fact and improperly interpreted
Rule 404(b) as an exclusionary rule as opposed to a rule
of inclusion. In addition, the record established that
although there was general agreement that Hill raised
and then lowered the garage door (the undisputed fact),
Hill also, and simultaneously, put his gun in the rear
pocket of his shorts to hide it (the disputed fact). As
demonstrated during trial, the rear pocket of Hill’s
shorts was extremely large, while the pistol was small
and easily fit in the pocket.
Old Chief, supra, involved a criminal defendant who
was being prosecuted for a federal crime which made
it illegal for a convicted felon to possess a firearm. Old
Chief agreed to stipulate to the fact that he was a
convicted felon but the government refused and
introduced evidence which included both the name and
nature of his prior felony conviction. Old Chief was
convicted and the Ninth Circuit affirmed. This Court,
in rejecting the petitioner’s argument that the name of
his prior offense was irrelevant in his prosecution,
instead found it was relevant, but was unfairly
prejudicial and therefore properly excluded under Rule
403. In discussing the reasoning behind the application
of the Rules of Evidence, this Court referred to advisory
committee notes to Rule 401 which stated:

21
The fact to which the evidence is directed need
not be in dispute. While situations will arise
which call for the exclusion of evidence offered to
prove a point conceded by the opponent, the
ruling should be made on the basis of such
considerations as waste of time and undue
prejudice (see Rule 403), rather than under any
general requirement that evidence is admissible
only if directed to matters in dispute.
Old Chief, 519 U.S. at 179.
This Court and the Eleventh Circuit have
repeatedly stated that the Federal Rules of Evidence
favor admission of any evidence tending to prove or
disprove a fact in issue. Huddleston, supra; United
States v. Finestone, 816 F.2d 583 (11th. Cir. 1987);
Young v. Ill. Cent. Gulf R.R. Co., 618 F.2d 332 (5th Cir.
1980)(if evidence has any probative value at all, its
admission is favored); see also United States v. Brown,
441 F.3d 1330, 1362 (11th Cir.2006) (“Consequently, in
“reviewing issues under Rule 403, we look at the
evidence in a light most favorable to its admission,
maximizing its probative value and minimizing its
prejudicial impact.”). “[B]ecause it permits a trial court
to exclude concededly probative evidence, Rule 403 is
an extraordinary remedy which should be used
sparingly.” United States v. King, 713 F.2d 627, 631
(11th Cir. 1983) (quotations omitted); See also
Stepanovich v. City of Naples, 728 Fed. App’x 891, 900
(11th Cir. 2018).
The Eleventh Circuit panel’s narrow focus on Hill
closing the garage door as the only critical fact and its
related reasoning for finding Hill’s probation status as

22
not relevant to the proceedings was error. The focus is
broader–whether Hill’s probationary status was
relevant to a material issue. Here, the jury was tasked
with deciding the reasonableness of Deputy Newman’s
use of force and whether he reasonably feared for his
life or the life of his fellow deputy. See Graham, 490
U.S. at 395; Garczynski v. Bradshaw, 573 F.3d 1158,
1167 (11th Cir. 2009). The Defendants offered evidence
of Hill’s probation as to that material issue to lend
credence to Deputy Newman’s version of events in
regard to his decision to use deadly force, and to
explain Hill’s actions in closing the garage door rapidly
at the sight of deputies and why Hill would act quickly
to hide his gun by putting it in his pocket, which
appeared to be an impossible task under the
circumstances.
The district court below found, consistent with the
Eleventh Circuit’s opinion in Knight v. Miami Dade
County, supra that the evidence of Hill’s probationary
status was relevant to the defense’s theory of the case
and that it was not overly prejudicial, especially
considering the Court’s limiting instruction regarding
the purpose for which the information was being
admitted. Just as the Eleventh Circuit Court stated in
Knight: “evidence of Blackwood’s prior conviction was
relevant to offer a reason for his flight, see Fed. R.
Evid. 404(b). No more ‘nexus’ is required.” Knight, 856
F.3d at 817, and the Defendants here needed no further
showing of a nexus for Hill’s probationary status to be
properly admissible.5
5

In fact, Plaintiff below conceded the probativeness of Hill’s
probationary status. In her briefs she states several times: “[i]f

23
One central question in this case went to the heart
of the reasonableness of the use of deadly force upon
Hill: after the shooting the only gun found on or near
Hill was located in his back pocket. From the trial’s
beginning, Plaintiff’s counsel suggested that Hill
himself could not have put the gun in his pocket once
he sustained the gun shot to his head which would
have rendered him incapable of significant motor
function. Plaintiff’s counsel also pointed out the fact
that the gun found in Hill’s back pocket did not have
any blood or brain matter on it. Plaintiff’s expert Roy
Bedard spent a significant amount of time testifying
that it was likely the gun was placed there by someone
other than Hill. As a result the Defendants countered
this theory by showing the jury that Hill was known to
own a gun and kept it in a file cabinet in his garage.
The Defendants showed the jury a photograph of the
scene in Hill’s garage, which included a file cabinet,
with an open drawer. Furthermore, the Defendants
submitted evidence to the jury showing how Hill could
have quickly placed the gun in his large rear pocket,
and would be motivated to do so because he was on
probation, prior to the final gunshot striking him in the
head. Plaintiff’s gun planting theory increased the
probative value of Hill’s probationary status and his
motive to quickly get the gun out of sight and into his
back pocket after unexpectedly being faced with

anything, evidence of Mr. Hill’s probationary status would, as the
trial court stated, be “probative of. . .the theory. . .that Mr. Hill
answered the garage door with a gun in his hand and then placed
it in his pocket.” Despite Plaintiff’s assertion to the contrary, this
was the Defendants’ theory of the case as correctly noted by the
trial court.

24
uniformed deputies when he knew he was not supposed
to be intoxicated or in possession of a firearm6.
C. The Eleventh Circuit panel disregarded the
appropriate application of the harmless
error standard by improperly presuming
that admission of Hill’s probationary status
resulted in substantial prejudice to
Plaintiff
The Eleventh Circuit panel improperly based its
finding of substantial prejudice in this case by way of
presuming that the jury was lead to believe that Hill
had previously been convicted of a crime, and that the
limiting instruction did not sufficiently mitigate the
prejudice which it presumed resulted from the
admission of this evidence. This was error as no such
evidence was introduced, and no such argument was
made.
Furthermore, the panel’s erroneous
presumption that “Hill’s probationary status could not
inform his motivation to conceal the weapon in the
scenario described by the officers” and that “[n]o
reasonable person would wish to be seen pointing a gun
at police officers, regardless of their probationary
status” defies this Court’s precedent concerning
probationers as well as common sense regarding the
reaction of law abiding citizens as opposed to those who
are on probation. Further it is the exact type of

6

The motivation for the rapidness of this movement likewise
explained how the gun was found free of spatter from blood or
brain matter as it would have already been located behind Hill as
he was being shot.

25
presumption, and substitution of judgment, that the
harmless error rule intended to avoid.
This Court has rejected the notion expressed by the
panel that probationers necessarily would react to the
sight of law enforcement in the same manner as those
not on probation. U.S. v. Knights, 534 U.S. 112, 122
S. Ct. 587, 151 L.Ed.2d 497 (2001). In an analysis of the
Fourth Amendment in the context of a search of a
probationer’s apartment this Court specifically noted
that “probationers have even more of an incentive to
conceal their criminal activities and quickly dispose of
incriminating evidence than the ordinary criminal
because probationers are aware that they may be
subject to supervision and face revocation of probation,
and possible incarceration....” Knights, 534 U.S. at 120,
122 S. Ct. at 592, 151 L.Ed.2d 497; see also Illinois v.
Wardlow, 528 U.S. 119 (2000), where this Court
applied common sense judgments about human
behavior when resolving a question regarding the
existence of reasonable suspicion. It is apparent from
the record that the Eleventh Circuit panel’s opinion is
a result oriented opinion that is not supported by the
record or the appropriate application of the harmless
error rule. The panel made presumptions that ignore
human behavior and common sense and that are not
supported by the record which contains substantial
evidence against Hill’s theory of the case.
The appellate court is supposed to apply the
harmless error standard in evaluating whether specific
trial errors warrant a new trial. See Title 28 U.S.C.
§ 2111; see also Fed. R. Civ. P. 61. Erroneous
evidentiary determinations that do not affect the

26
substantial rights of a party must be disregarded. 28
U.S.C. § 2111; Fed. R. Civ. P. 61; Fed. R. Evid. 103(a).
This Court has stated that the federal harmless-error
statute, 28 U.S.C. § 2111 seeks to prevent appellate
courts from becoming “impregnable citadels of
technicality”, and expresses a congressional preference
for determining harmless error without the use of
presumptions insofar as those presumptions may lead
courts to find an error harmful, when, in fact, in the
particular case before the court, it is not. McDonough
v. Power Equipment, Inc. v. Greenwood, 464 U.S. 548,
104 S. Ct. 845, 78 L.Ed.2d 663 (1984); Shinseki v.
Sanders, 556 U.S. 396, 129 S. Ct. 1696, 173 L.Ed.2d
532 (2009).
As this Court has noted in McDonough, 464 U.S. at
553:
We have also come a long way from the time
when all trial error was presumed prejudicial
and reviewing courts were considered “citadels
of technicality.”Kotteakos v. United States, 328
U.S. 750, 759, 66 S.Ct. 1239, 1245, 90 L.Ed. 1557
(1946), quoting Kavanagh, Improvement of
Administration of Criminal Justice by Exercise
of Judicial Power, 11 A.B.A.J. 217, 222 (1925).
The harmless error rules adopted by this Court
and Congress embody the principle that courts
should exercise judgment in preference to the
automatic reversal for “error” and ignore errors
that do not affect the essential fairness of the
trial. See Kotteakos, 328 U.S., 759–760, 66 S.Ct.,
1245–1246.

27
It is important to note that it was Plaintiff’s counsel
who first brought Hill’s probation status before the
jury with his examination of Plaintiff’s law
enforcement expert (Roy Bedard) who testified that
Hill’s probation status had no significance in the case.
(Pet. App. 53-54). Plaintiff’s counsel then brought to
the jury’s attention Hill’s probation several more times:
with Hill’s fiancee, Terrica Davis who testified (falsely)
that Hill was not on probation at the time of the
shooting, with lead detective Sgt. Edgar LeBeau, and
again with both Deputies Newman and Lopez. (Pet.
App. 56, 59, 67, 71-72). Plaintiff’s counsel also
suggested that Hill had a right to possess a gun in his
home. (Pet. App. 71).
Because the jury heard multiple times about Hill’s
probationary status on Plaintiff’s side of the case,
including the false testimony by Hill’s fiancee that he
was not on probation on the subject date, the
Defendants were essentially forced to rebut this
testimony and again revisit the probation issue.
Abiding by the trial court’s ruling, the Defendants
called probation supervisor Niles Graben who testified
only that Hill was still on probation at the time of the
shooting as he still had unpaid court costs and that his
probation prohibited him from drinking alcohol and
possessing a firearm. (Pet. App. 60-66). Defendants’
counsel never portrayed Hill as a “bad man” to the jury
and her references to the probation issue during closing
arguments concerned Hill’s motive for why he would
have quickly lowered the garage door and immediately
placed the gun in his back pocket, which again was to
support the defense’s theory on how and why the gun

28
was found in Hill’s back pocket, rather than in or near
his hand.
Moreover, contrary to the panel’s opinion, the
admission of Hill’s probationary status was harmless in
light of the strength of the other evidence against Hill.
This included Hill’s high blood alcohol level, that he
was known to keep a gun in his garage, and that he
would have been able to put the gun into his rear
pocket prior to the last shot striking his head, as
demonstrated during trial where the gun easily fit into
the large rear pocket of Hill’s shorts. Further, it was
error for the panel to give so much weight to Hill’s
daughter’s testimony in this case. As previously stated,
the testimony of Hill’s elementary school aged
daughter, that her father’s hand was empty, was
rebutted by substantial evidence and reasonably
rejected by the jury.
As a result, the Eleventh Circuit panel should not
have reversed and remanded this case for a new trial.
See e.g. United States v. Young, 470 U.S. 1, 105 S. Ct.
1038, 84 L.Ed.2d 1 (1985)(argument of prosecutor,
although error, did not constitute plain error, nor did
the challenged argument seriously affect the fairness
of the trial, accordingly, the judgment of the Court of
Appeals, ordering a new trial based on the prosecutor’s
argument, is reversed.); United States v. Green, 873
F.3d 846 (11th Cir. 2017) (District court’s error in
admitting judgment showing defendant’s prior state
conviction was harmless, in light of ample, independent
evidence of defendant’s guilt, and court’s cautionary
instruction as to jury’s use of prior bad acts evidence);
United States v. Beck, 625 F.3d 410 (7th Cir. 2010)

29
(admission of testimony of defendant’s probation officer
raising inference that defendant was on probation and
that he had been previously convicted of a crime was
harmless error in light of the strength of the other
evidence against defendant).
As this Court has stated, the trial court who was
present to hear all of the evidence was in the best
position to determine the appropriateness of the
introduction of Hill’s probation status and accordingly
properly denied Plaintiff’s motion for new trial. See
Sprint/United Mgmt. Co., 128 S. Ct. at 1146.
CONCLUSION
For the foregoing reasons, this Court should grant
this petition and issue a writ of certiorari to review the
judgment and opinion of the Eleventh Circuit Court of
Appeals.

30
Respectfully submitted this 9th day of October,
2020.
SUMMER M. BARRANCO
Counsel of Record
RICHARD A. GIUFFREDA
PURDY, JOLLY, GIUFFREDA,
BARRANCO & JISA, P.A.
2455 East Sunrise Boulevard
Suite 1216
Fort Lauderdale, Florida 33304
(954) 462-3200
summer@purdylaw.com
richard@purdylaw.com
Counsel for Petitioners

